No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

EFRAIN CAMARILL CRUZ,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals
______________________________________________________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
______________________________________________________________________________

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

A-1

TABLE OF CONTENTS
Document

Page

1.

April 8, 2020, opinion of the United States Eleventh
Circuit Court of Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-3

2.

September 23, 2019, order of the United States Middle
District of Florida. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-6

3.

April 13, 2017, Response to Petition for Writ of Habeas Corpus. . . . . . . . . . A-48

4.

Letter from Dr. Ginart, Psy.D.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-79

5.

Answer Brief of Appellee within case no. 5D14-0833.. . . . . . . . . . . . . . . . . . A-80

6.

April 14, 2014, order of the Florida Fifth Judicial Circuit Court. . . . . . . . A-103

7.

February 10, 2014, order of the Florida Fifth Judicial Circuit Court . . . . A-107

8.

July 16, 2012, Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-113

9.

July 2, 2012, Incident Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-115

10. June 23, 2012, Arrest Affidavit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-117
11. July 31, 2011, Affidavit for a Search Warrant. . . . . . . . . . . . . . . . . . . . . . . A-120

A-2

Case: 19-14201

Date Filed: 04/08/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14201-B
________________________
EFRAIN CAMARILL CRUZ,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
ORDER:
Efrain Cruz, a Mexican national, filed a counseled 28 U.S.C. § 2254 habeas corpus petition
while he was serving three years’ probation in Florida after he pled guilty to using a device to lure
a child, using a device to lure the parent or guardian of a child, traveling to meet a minor for illegal
sexual conduct, and attempted lewd or lascivious battery with a child. He raised the following
three claims in his § 2254 petition:
(1) his guilty plea was not voluntary because of his mental illness, and his counsel
was ineffective for failing to argue that Cruz was incompetent to enter a guilty
plea;
(2) counsel was ineffective for failing to move to dismiss the count in the
indictment for attempted lewd or lascivious battery; and
(3) his convictions and sentences violated the Double Jeopardy Clause.

A-3

Case: 19-14201

Date Filed: 04/08/2020

Page: 2 of 3

After the state’s response and Cruz’s reply, the district court denied the § 2254 petition,
concluding that Claims 1 and 2 were meritless and that Cruz had waived Claim 3 with his guilty
plea. The district court also denied Cruz a certificate of appealability (“COA”). Cruz has appealed
and now moves this Court for a COA, repeating his arguments for Claims 1 and 3 that he raised in
his § 2254 petition.
To obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

The petitioner satisfies this requirement by

demonstrating that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” or that the issues “deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quotations omitted). If a state court has
adjudicated a claim on the merits, a federal court may grant habeas relief only if the decision of
the state court (1) “was contrary to, or involved an unreasonable application of, clearly established
[f]ederal law, as determined by the Supreme Court,” or (2) “was based on an unreasonable
determination of the facts in light of the evidence presented in the [s]tate court proceeding.” 28
U.S.C. § 2254(d)(1), (2).
As an initial matter, Cruz has waived Claim 2 because he did not raise it in his COA motion
to this Court. See Jones v. Sec’y, Dep’t of Corrs., 607 F.3d 1346, 1353-54 (11th Cir. 2010) (stating
that this Court “will not entertain the possibility of granting a” COA on an issue as to which the
petitioner “does not provide facts, legal arguments, or citations of authority that explain why he is
entitled to a certificate”).
Here, the state post-conviction court’s decision that Cruz’s guilty plea was knowing and
voluntary was not contrary to, or an unreasonable application of, federal law, or an unreasonable
determination of the facts. See 28 U.S.C. § 2254(d)(1). Based on the representations made by

2
A-4

Case: 19-14201

Date Filed: 04/08/2020

Page: 3 of 3

Cruz and his counsel during the plea colloquy, Cruz was competent to plead guilty because (1) he
had the ability to consult with, and understand the advice of, his counsel; and (2) he understood
that he was pleading guilty to the charged offenses and what the consequences of his guilty plea
would be. See Dusky v. United States, 362 U.S. 402, 402 (1960) (holding that a defendant is
competent if he has a “sufficient present ability to consult with his lawyer with a reasonable degree
of rational understanding and has “a rational as well as factual understanding of the proceedings
against him”); Stano v. Dugger, 921 F.2d 1125, 1141 (11th Cir. 1991) (en banc) (“If a defendant
understand the charges against him, understand the consequences of a guilty plea, and voluntarily
chooses to plead guilty, without being coercered to do so, the guilty plea . . . will be upheld on
federal review.”). Because Cruz failed to show that he was incompetent to plead guilty, counsel
could not have been ineffective for failing to raise this issue. See Chandler v. Moore, 240 F.3d
907, 917 (11th Cir. 2001) (stating that counsel is not ineffective for failing to raise non-meritiorious
issues). Accordingly, no COA is warranted as to Claim 1.
Furthermore, reasonable jurists would not debate the district court’s conclusion that
Claim 3 was waived by Cruz’s guilty plea. Cruz’s voluntary and counseled guilty plea waived any
double-jeopardy claim because the indictment, on its face, charged him with conduct related to
two different minors. See United States v. Broce, 488 U.S. 563, 569, 574-75 (1989) (holding that
a voluntary and counseled guilty plea waives double-jeopardy issues, specifically when the
defendant pleads guilty to an indictment that, on its face, describes different offenses).
Accordingly, Cruz’s motion for a COA is DENIED.

/s/ Robin S. Rosenbaum
UNITED STATES CIRCUIT JUDGE

3
A-5

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 1 of 42 PageID 409

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION

EFRAIN CAMARILL CRUZ,
Petitioner,
v.

Case No. 5:16-cv-531-Oc-39PRL

SECRETARY, DEPARTMENT
OF CORRECTIONS, et al.,
Respondents.
_______________________________
ORDER
I. Introduction
Petitioner, Efrain Camarill Cruz, a former detainee of the
Citrus County Jail, proceeds on a petition for writ of habeas
corpus under 28 U.S.C. § 2254, filed by counsel (Doc. 1; Petition).
Petitioner challenges a 2013 Citrus County judgment of conviction.
Respondents filed a response (Doc. 12; Response), and Petitioner’s
counsel replied (Doc. 22; Reply).1
Petitioner raises three grounds for habeas relief: (1) his
guilty plea was not voluntary because of his mental illness, or
alternatively, the ineffective assistance of counsel for failure
to argue Petitioner was incompetent to enter a guilty plea and for

1

The Court will cite to the exhibits in the Appendix as “Ex.”
The Court will reference page numbers using the Bates stamps where
provided (primarily for Ex. A). Otherwise, the document’s internal
page numbering will be used, not the Court’s electronic docket
system numbering.

A-6

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 2 of 42 PageID 410

failure to request a competency hearing under the Florida Rules of
Criminal Procedure; (2) the ineffective assistance of counsel for
failure to move to dismiss count four of the indictment; and (3)
his

convictions

and

sentence

under

Florida

Statutes

sections

847.0135(3)(a) and (4)(a) violate double jeopardy principles.
Petition at 10, 17, 18.
II. Procedural History
Petitioner, a Mexican citizen, was convicted on August 19,
2013, and sentenced to serve 90 days in the county jail followed
by three years of probation with possible deportation. Petition at
1. As of the date of this Order, Petitioner completed his sentence.
However, when Petitioner filed his Petition, on August 19, 2016,
he

met

the

“custody”

requirement

under

§

2254

because

his

probationary term had not expired. Id. It appears Petitioner faces
a

possible

collateral

consequence

related

to

his

conviction

because he alleges he was subject to deportation as a result. Id.
Petitioner

was

arrested

on

June

22,

2012,

following

an

undercover operation. Ex. A at 27. According to the probable cause
affidavit, Petitioner used his “email account to seduce, solicit,
lure or entice or attempt to seduce, solicit, lure or entice a
parent of a child to commit any illegal sex act.” Id. at 28. An
undercover agent, Deputy Phil Graves, posing as an adult single
mother,

posted

an

advertisement

online,

titled

“ready

for

training–W4M.” Id. That same day, Petitioner responded to the
2
A-7

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 3 of 42 PageID 411

advertisement using an online email service. Id. Deputy Graves
responded immediately and identified the child as a 13-year-old
girl. Id. Petitioner exchanged numerous text messages with whom he
thought was the parent of the child. Id. The two also exchanged
pictures through email. Id. Petitioner spoke by phone with the
supposed parent and the supposed daughter, talking to the daughter
about engaging in sex acts with her. Id. at 28-29. Deputy Graves
provided Petitioner an address and the two arranged to meet. Id.
at

29.

When

Petitioner

arrived,

officers

arrested

him,

confiscating two cell phones and a thumb drive device, each of
which was believed to contain pertinent information. Id. at 59,
66.2 After being read his rights, Petitioner stated he made a
mistake. Id.
On July 16, 2012, Petitioner was charged by Information with
four counts: (1) use of the internet or device to lure a child
identified as Tiffany Wright; (2) use of the internet or device to
lure the parent of a child; (3) traveling to meet a minor,
identified as Jenny,3 for illegal sexual conduct; and (4) attempted
lewd/lascivious battery on a child identified as Jenny. Id. at 38.

2

A search warrant subsequently was issued and executed for
the devices. Ex. A at 64-68.
3

The Information references two fictitious minors: Tiffany
Wright and Jenny. Ex. A at 38. The parties do not dispute
Petitioner believed there was only one minor involved. It is
unclear why two different names are referenced in the Information.
3
A-8

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 4 of 42 PageID 412

On August 19, 2013, Petitioner entered a guilty plea as “an
open plea to the Court,” not as a result of a plea negotiation
with the prosecutor. Id. at 3, 4. After Petitioner was sworn in,
Petitioner’s attorney, Mr. Grant, informed the trial judge he spoke
with Petitioner prior to the proceedings to explain the terms of
the plea, including the sentence:
MR. GRANT: Mr. Cruz, Judge, for the
record, reads and writes English, is extremely
articulate. He, in addition to that, Your
Honor, did acquire his GED and one year of
college. He’s been in the United States for 16
years. I have, Judge, in this case, we have
not taken any depositions . . . because Mr.
Cruz, through the decision-making process, has
agreed to take the deal that the State of
Florida – well, that the court is going to
offer.4
. . . .
Specifically, Your Honor, we discussed it, I
gave
him
my
professional
opinion,
the
likelihood of success at trial which was
limited in this case. There are post-Miranda
admissions written and oral. There were text
messages, there were – the government had a
very strong case
. . . .
I want to make sure that I have advised Mr.
Cruz that as a foreign national, it is my
opinion that he will be deported from the

4

Petitioner’s plea was not negotiated with the prosecutor.
As such, there was no written plea agreement. Ex. A at 3. Defense
counsel stated the plea was the result of “a judge’s conference”
at which the parties seemingly discussed whether Petitioner would
change his plea in exchange for “90 days, three years, standard
probation.” Id.
4
A-9

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 5 of 42 PageID 413

United States upon . . . entering of the plea
of guilty.
. . . .
I want to make it abundantly clear that my
client understands that, is prepared to go to
Mexico if the United States government does,
in fact, deport him.
Id. at 5-6. Mr. Grant also informed the judge the following:
Your Honor, we have discussed that [my client
is] waiving his right to a jury trial, waiving
the right to confront witnesses, waiving his
right to an appeal other than for any legal
[sic] sentence, that he has waived – that he’s
going to be getting DNA from the Court, and
that he’s waiving all his other constitutional
rights that relate to a jury trial and the
right to confront witnesses and challenge the
witnesses and the evidence that the government
may present against him. In light of that,
we’re here to change our plea today, enter a
plea of guilty, receive 90 days in the Citrus
County Jailhouse and three years standard
probation.
Id. at 9.
Upon receiving Mr. Grant’s assurances that Petitioner wished
to enter a guilty plea understanding the implications and potential
consequences,

the

judge

engaged

Petitioner

in

the

exchange:
THE COURT:
Mr. Cruz, you heard your
attorney’s representations. Is that how you
want to handle this matter?
THE DEFENDANT: Yes, sir.
THE COURT:
Are you presently under
the influence of any alcohol or intoxicant

5
A-10

following

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 6 of 42 PageID 414

that would negatively
judgment here today?

affect

your

good

THE DEFENDANT: No, sir.
THE COURT:
to be insane,
challenged?

Have you ever been found
incompetent, or mentally

THE DEFENDANT: No, sir.
THE COURT:
Okay. Are you comfortable
in the English language?
THE DEFENDANT: Yes, sir.
THE COURT:
Have you been able to
understand everything I’ve said in English as
well as what [your attorney] has said in
English?
THE DEFENDANT: Yes, I did, sir.
THE COURT:
Very good. Now, then, Mr.
Cruz, you heard about your situation regarding
your immigration status, residency status,
and/or likely deportation status. Do you
understand that this plea could and likely
would subject you to deportation by the
federal authorities, you understand that?
THE DEFENDANT: Yes, sir.
THE COURT:
[A] guilty plea is one
saying that I am guilty of this offense, that
you heard your attorney indicate the rights
you’re giving up. Do you need me to go over
each one of those rights individually like
he’s already done in your presence?
THE DEFENDANT: No, sir.
Id. at 10-11.
The trial judge then stated the factual predicate for the
plea, as follows:
6
A-11

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 7 of 42 PageID 415

Mr. Cruz, the facts of the case would tell me
that on or about June the 22nd, of 2012 . . .
you did knowingly utilize a computer online
service, Internet service, local bulletin
board, or other electronic status storage
device to seduce, solicit, lure, entice a
Tiffany Wright believed by you, Mr. Cruz, to
be a child to commit an illegal act as defined
by Florida [laws], this by conversing or
chatting or sending emails or messages to this
person.
Id. at 11-12.
The judge further explained Petitioner communicated with
someone Petitioner believed to be the parent of the child to
solicit the parent’s consent for the child to participate in an
illegal act. Id. at 12. The judge explained Petitioner traveled
some distance “to conduct sexual contact with Jenny or Tiffany or
somebody else utilizing this electronic data storage matter,” and
explained:
In other words, you traveled for the purpose
of having sex with Jenny and that further on
or about this same date, that you did attempt
to engage in sexual activity with Jenny who
was believed by you to be a person over the
age of 12 but less than 16, this [sic] by
attempting to have sexual contact . . . .
Id. at 13.
After

setting

forth

the

factual

predicate,

the

judge

explained to Petitioner that Mr. Grant was not appointed as
Petitioner’s immigration attorney and reiterated Petitioner’s plea
may result in his deportation. Id. at 14. The judge said:

7
A-12

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 8 of 42 PageID 416

If you are, in fact, deported, you can’t come
back later on and say that Mr. Grant has done
anything improper or has given you bad advice
or anything. He’s given you the best that he
has and you know your situation. Is that
correct, Mr. Cruz?
Id. Petitioner responded, “Yes, sir.”5 The judge explained to
Petitioner his guilty plea would result in the waiver of certain
rights:
So you’re forever waiving your rights to
appeal or challenge any of the facts of this
case as we’ve already discussed the facts of
the case or any legalities of any decisions
that have already been made by me and of
course, you still have the right to, you know,
have an immigration hearing . . . . You
understand that?
Id.

at

14-15.

Petitioner

responded,

“Yes,

sir.”

Id.

at

15.

Petitioner agreed Mr. Grant “answered all of [his] questions to
complete

and

utter

satisfaction,”

and

Mr.

Grant

confirmed

Petitioner was “competent.” Id. The judge explained Petitioner
would be designated a sexual offender and would be subject to the
requirements of the Jimmy Ryce and Lunsford Acts. Id. at 19-20.
The judge accepted Petitioner’s plea of guilty, finding it “freely
and voluntarily entered into after knowing waiver of rights” and
after the factual basis was established. Id. at 17.

5

Notably, Petitioner’s immigration attorney was present in
the courtroom when Petitioner entered his guilty plea. Ex. A at
23.
8
A-13

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 9 of 42 PageID 417

Petitioner, through counsel, filed a direct appeal, id. at
82, which he voluntarily dismissed, Ex. B. Petitioner’s counsel
then filed a motion under Florida Rule of Criminal Procedure 3.850
requesting the trial court vacate Petitioner’s judgment. Ex. D-5.
The trial court denied the 3.850 motion. Ex. D-3; Ex. G.6 Petitioner
appealed the trial court’s ruling. Ex. H. On August 18, 2015, the
appellate court affirmed without opinion. Ex. M. The appellate
court denied Petitioner’s motion for rehearing on September 2,
2015, Ex. O, and the mandate issued on October 8, 2015, Ex. P.
III. Timeliness & Exhaustion
Respondents assert the Petition appears to have been timely
filed7 and the claims have been exhausted in state court except
for one portion of ground one. See Response at 9, 11. Respondents
contend “the portion of claim one relying on ‘Exhibit A’ . . . has
not been exhausted in state court,” due to Petitioner’s failure to
present a copy of the exhibit. Id. at 11. Exhibit A is a letter
from a neuropsychologist, Dr. Ginart, who evaluated Petitioner at
the

request

of

Petitioner’s

lawyer

in

furtherance

of

his

postconviction proceedings. See Petition at 10, 26. Petitioner

6

The trial court issued two orders on the 3.850 motion. Ex.
D-3; Ex. G. On the day the court issued the first order, it reserved
ruling on one claim and directed the state to respond to that
claim. Ex. D-2. After the state responded, the trial court issued
a final order. Ex. G.
7

For purposes of this Order, the Court construes the Petition
as timely filed.
9
A-14

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 10 of 42 PageID 418

asserts Florida law does not require him to have provided the
exhibit to the state court because he referenced Dr. Ginart’s
opinion in his 3.850 motion. Reply at 3-4.
Upon review of the record, the Court finds Petitioner’s
position is well-founded. In his 3.850 motion, Petitioner asserted
he suffered a mental illness, and his counsel referenced the
neuropsychologist’s opinion, stating “Dr. Ginart has concluded
[Petitioner] was incompetent to enter a guilty plea.” Ex. D-5 at
6. Petitioner was not required to attach the written opinion to
his motion. See Mann v. State, 21 So. 3d 894, 895 (Fla. 2d DCA
2009) (recognizing Florida law does not require a prisoner to
support his sworn motion with evidence). The Court concludes
Petitioner has exhausted all claims in his Petition. Accordingly,
in analyzing ground one, the Court will consider, to the extent
relevant, the exhibit Plaintiff attaches to his Petition.
IV. Evidentiary Hearing
Petitioner requests an evidentiary hearing on grounds one and
two. See Petition at 14, 15, 18. Petitioner has the burden to
establish the need for a federal evidentiary hearing. Chavez v.
Sec’y, Fla. Dep’t of Corr., 647 F.3d 1057, 1060 (11th Cir. 2011).
A district court is not required to hold an evidentiary hearing if
the record refutes the asserted factual allegations or otherwise
precludes habeas relief. A petitioner fails to demonstrate an

10
A-15

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 11 of 42 PageID 419

evidentiary

hearing

is

warranted

based

upon

conclusory

allegations. Id. at 1061.
In determining whether an evidentiary hearing is warranted,
a federal court should take into consideration the deferential
standards of federal habeas review

under § 2254. Schriro v.

Landrigan, 550 U.S. 465, 474 (2007). “Therefore, before a habeas
petitioner may be entitled to a federal evidentiary hearing . . .
he must demonstrate a clearly established federal-law error or an
unreasonable determination of fact on the part of the state court,
based solely on the state court record.” Landers v. Warden, Atty.
Gen. of Ala., 776 F.3d 1288, 1295 (11th Cir. 2015).
After a thorough review of the record,

the Court finds

Petitioner fails to carry his burden to demonstrate the need for
an evidentiary hearing. The Court finds the pertinent facts are
fully developed in this record or the record otherwise precludes
habeas relief. Consequently, this Court can “adequately assess
[Petitioner’s]

claim[s]

without

further

factual

development.”

Turner v. Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003).
V. Standard of Review
The Antiterrorism and Effective Death Penalty Act (AEDPA)
governs a state prisoner’s federal petition for habeas corpus.
See § 2254. “‘The purpose of AEDPA is to ensure that federal habeas
relief functions as a guard against extreme malfunctions in the
state criminal justice systems, and not as a means of error
11
A-16

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 12 of 42 PageID 420

correction.’” Ledford v. Warden, Ga. Diagnostic & Classification
Prison, 818 F.3d 600, 642 (11th Cir. 2016), cert. denied, 137 S.
Ct. 1432 (2017) (quoting Greene v. Fisher, 565 U.S. 34, 38 (2011)).
As such, federal habeas review of final state court decisions is
“‘greatly circumscribed’ and ‘highly deferential.’” Id. (quoting
Hill v. Humphrey, 662 F.3d 1335, 1343 (11th Cir. 2011)).
The first task of a federal habeas court is to identify the
last

state

court

decision,

if

any,

that

adjudicated

the

petitioner’s claims on the merits. Marshall v. Sec’y Fla. Dep’t of
Corr., 828 F.3d 1277, 1285 (11th Cir. 2016). The state court need
not issue an opinion explaining its rationale for its decision to
qualify as an adjudication on the merits. Wilson v. Sellers, 138
S. Ct. 1188, 1192 (2018). Where the state court’s adjudication on
the merits is unaccompanied by an explanation, the district court
should presume the unexplained decision adopted the reasoning of
the lower court:
the federal court should “look through” the
unexplained decision to the last related
state-court decision that does provide a
relevant rationale. It should then presume
that the unexplained decision adopted the same
reasoning.
Id. The presumption is rebuttable by a showing that the higher
state court’s adjudication most likely relied on different grounds
than the lower state court’s reasoned decision. Id. at 1192, 1196.

12
A-17

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 13 of 42 PageID 421

When a state court has adjudicated a petitioner’s claim on
the merits, a federal court cannot grant habeas relief unless the
state court’s adjudication of the claim was “contrary to, or
involved

an

unreasonable

application

of,

clearly

established

Federal law, as determined by the Supreme Court of the United
States,” or “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court
proceeding.” § 2254(d). The burden of proof is high; “clear error
will not suffice.” Virginia v. LeBlanc, 137 S. Ct. 1726, 1728
(2017). A state court’s factual findings are “presumed to be
correct” unless rebutted “by clear and convincing evidence.” §
2254(e)(1).
As such, “AEDPA erects a formidable barrier to federal habeas
relief for prisoners whose claims have been adjudicated in state
court.” Burt v. Titlow, 571 U.S. 12, 19 (2013). “Federal courts
may grant habeas relief only when a state court blundered in a
manner so ‘well understood and comprehended in existing law’ and
‘was so lacking in justification’ that ‘there is no possibility
fairminded jurists could disagree.’” Tharpe v. Warden, 834 F.3d
1323, 1338 (11th Cir. 2016), cert. denied, 137 S. Ct. 2298 (2017).
(quoting Harrington v. Richter, 562 U.S. 86, 102-03 (2011)).
The

AEDPA

standard

is

intended

to

be

difficult

for

a

petitioner to meet. Richter, 562 U.S. at 102. A district court’s
obligation is to “train its attention” on the legal and factual
13
A-18

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 14 of 42 PageID 422

basis for the state court’s ruling, not to “flyspeck the state
court order or grade it.” Meders v. Warden, Ga. Diagnostic Prison,
911 F.3d 1335, 1349 (11th Cir. 2019) (citing Wilson, 138 S. Ct. at
1191-92). A federal district court must give appropriate deference
to a state court decision on the merits. Wilson, 138 S. Ct. at
1192. Appropriate deference requires the court to defer to the
reasons articulated by the state, if they are reasonable. Id.
Petitioner asserts AEDPA’s presumption of correctness does
not apply because the trial court did not conduct an evidentiary
hearing.

Petition

at

15,

18.

In

support

of

his

contention,

Petitioner cites three opinions from other circuits.8 Petitioner
provides no binding precedent holding that a state court’s factual
conclusions are not entitled to a presumption of correctness solely
because the court reaches those conclusions without the benefit of
an evidentiary hearing. In fact, the Eleventh Circuit has held an
evidentiary hearing is not a prerequisite to trigger AEDPA’s
presumption of correctness, recognizing:

8

Alston v. Redman, 34 F.3d 1237 (3d Cir. 1994); Miller v.
Champion, 161 F.3d 1249 (10th Cir. 1998), abrogation recognized by
Smith v. Aldridge, 904 F.3d 874, 886 (10th Cir. 2018); and Valdez
v. Cockrell, 288 F.3d 702 (5th Cir. 2002). Not only are these
decisions not binding, one of the opinions upon which Petitioner
relies is a dissent from a petition for rehearing en banc. See
Valdez, 288 F.3d at 702. In the underlying opinion, the Fifth
Circuit held a “full and fair hearing is not a precondition to
according § 2254(e)(1)’s presumption of correctness to state
habeas court findings of fact.” Valdez v. Cockrell, 274 F.3d 941,
951 (5th Cir. 2001) (emphasis added).
14
A-19

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 15 of 42 PageID 423

[T]here does not appear to be any binding
Supreme Court or Eleventh Circuit precedent on
whether § 2254(d)(2) deference is conditioned
on a state court having held an evidentiary
hearing . . . . More broadly, the Supreme Court
seems to have foreclosed a per se rule that a
state court must conduct an evidentiary
hearing to resolve every disputed factual
question. . . . Thus, we conclude that an
evidentiary hearing in state court cannot be
a requirement for § 2254(d)(2) deference for
all disputed factual issues in a state court
proceeding.
Landers v. Warden, Atty. Gen. of Ala., 776 F.3d 1288, 1297 (11th
Cir. 2015). In accordance with binding precedent, this Court must
give appropriate deference to the relevant state court decision.
Wilson, 138 S. Ct. at 1192.
VI. Ineffective Assistance of Counsel
Petitioner claims he received the ineffective assistance of
counsel in violation of the Sixth Amendment to the United States
Constitution. To demonstrate his trial counsel was ineffective,
Petitioner must satisfy a rigorous two-prong test by showing (1)
counsel’s performance was deficient, meaning it fell below an
objective standard of reasonableness, and (2) counsel’s deficient
performance prejudiced his defense. Strickland v. Washington, 466
U.S. 668, 688, 692 (1984). Restated, a criminal defendant’s Sixth
Amendment right to effective assistance of counsel “is denied when
a defense attorney’s performance falls below an objective standard
of reasonableness and thereby prejudices the defense.” Yarborough
v. Gentry, 540 U.S. 1, 5 (2003) (citing Wiggins v. Smith, 539 U.S.
15
A-20

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 16 of 42 PageID 424

510, 521 (2003); Strickland, 466 U.S. at 687). The prejudice prong
requires a showing that there is a reasonable probability that,
but for counsel’s deficiencies, the result of the proceeding would
have been different. Strickland, 466 U.S. at 695.
The

two-prong

Strickland

test

applies

when

a

petitioner

challenges his counsel’s performance with respect to the entry of
a guilty plea such that a

petitioner still must demonstrate

counsel’s performance was deficient. Hill v. Lockhart, 474 U.S.
52, 58-59 (1985). To establish prejudice, however, a petitioner
must

show

there

is

a

“reasonable

probability

that,

but

for

counsel’s errors, he would not have pleaded guilty and would have
insisted on going to trial.” Id. at 59.
Notably, there is no “iron-clad rule requiring a court to
tackle one prong of the Strickland test before the other.” Ward v.
Hall, 592 F.3d 1144, 1163 (11th Cir. 2010). Since both prongs of
the two-part Strickland test must be satisfied to show a Sixth
Amendment violation, “a court need not address the performance
prong if the petitioner cannot meet the prejudice prong, and viceversa.” Id. (citing Holladay v. Haley, 209 F.3d 1243, 1248 (11th
Cir. 2000)).
When

a

petitioner

claims

his

counsel

was

ineffective,

“[r]eviewing courts apply a ‘strong presumption’ that counsel’s
representation

was

‘within

the

wide

range

of

reasonable

professional assistance.’” Daniel v. Comm’r, Ala. Dep’t of Corr.,
16
A-21

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 17 of 42 PageID 425

822 F.3d 1248, 1262 (11th Cir. 2016) (quoting Strickland, 466 U.S.
at 689). When the “strong presumption” standard of Strickland is
applied “in tandem” with the highly deferential AEDPA standard, a
review of the state court’s determination as to the “performance”
prong is afforded double deference. Richter, 562 U.S. at 105.
Accordingly, the question for a federal court is not whether
trial counsel’s performance was reasonable, but “whether there is
any

reasonable

argument

that

counsel

satisfied

Strickland’s

deferential standard.” Id. If there is “any reasonable argument
that

counsel

satisfied

Strickland’s

deferential

standard,”

a

federal court may not disturb a state-court decision denying the
claim. Id. As such, “[s]urmounting Strickland’s high bar is never
an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371 (2010).
VII. Findings of Fact & Conclusions of Law
A. Ground One
Petitioner asserts his guilty plea was involuntary because he
was

mentally

incompetent

at

the

time.

Petition

at

10.

Alternatively, Petitioner argues his counsel was ineffective for
failure to request a competency hearing under the Florida Rules of
Criminal Procedure. Id.9 Petitioner raised these claims in ground
one of his 3.850 motion, Ex. D-5 at 6.

9

Respondents contend Petitioner’s argument that counsel
failed to request a competency hearing under the Florida Rules of
Criminal Procedure presents solely a state-law issue. Response at
17. Petitioner presents his competency claim as a denial of
17
A-22

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 18 of 42 PageID 426

In its order, the trial court paraphrased Petitioner’s first
claim as follows:
In light of [Petitioner’s] mental illness,
[he] was not able to fully comprehend his
guilty plea and therefore the plea was
involuntary.
.
.
.
Alternatively,
the
[Petitioner] alleges that his defense Counsel
was ineffective by failing to properly
evaluate and argue that [he] was incompetent
to enter a guilty plea and failing to request
a hearing pursuant to [Florida Rule of
Criminal Procedure] 3.210.
D-3 at 2. The trial court found the record conclusively refuted
Petitioner’s assertions. Ex. D-3 at 4.
As to Petitioner’s claim of incompetency, the trial court
referenced the plea transcript, which the court found revealed the
following:
[Petitioner] had no criminal history, was a
gainfully employed artist, was married,
understood the English language, was not under
the influence of any alcohol or intoxicant,
had never been found incompetent or mentally
challenged, understood the rights he was
giving up in his plea agreement, understood
that he would be subject to deportation,
understood the sexual offender registration
and monitoring requirements, was satisfied
with the representation of his attorney, and
that there was simply no indication of any
mental incompetency.

effective assistance of counsel, invoking the Sixth Amendment.
Therefore, his claim is cognizable under § 2254.
18
A-23

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 19 of 42 PageID 427

Id.

at

4

(emphasis

added).

The

trial

court

further

found

Petitioner’s claim that counsel was ineffective for failing to
request a competency hearing was without merit. Id.
The Fifth District Court of Appeal (DCA) affirmed without
opinion. Ex. M. To the extent the Fifth DCA affirmed the trial
court’s denial on the merits, the Court will address the claim in
accordance with the deferential standard for federal court review
of state court adjudications. See Wilson, 138 S. Ct. at 1194. As
such, the Court will “look through” the unexplained opinion to the
trial court’s order on Petitioner’s 3.850 motion. Id.10 The trial
court’s factual findings are presumed correct unless Petitioner
overcomes the presumption with clear and convincing evidence. See
§ 2254(e).
After a review of the record and the applicable law, the Court
concludes the state court’s adjudication of the claim was not
contrary to clearly established federal law, did not involve an
unreasonable application of clearly established federal law, and
was not based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceedings.
Thus, Petitioner is not entitled to relief on this claim.

10

In looking through the appellate court’s per curiam
affirmance to the circuit court’s “relevant rationale,” the Court
presumes the appellate court “adopted the same reasoning.” Wilson,
138 S. Ct. at 1194.
19
A-24

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 20 of 42 PageID 428

Even if the state court finding is not entitled to deference,
Petitioner’s claim fails. A habeas petitioner who asserts he was
tried or convicted while he was incompetent raises a substantive
due process claim. James v. Singletary, 957 F.2d 1562, 1571-72
(11th Cir. 1992). “It has long been established that the conviction
of an incompetent defendant denies him or her the due process of
law guaranteed in the Fourteenth Amendment.” Id. at 1573. To
succeed on a substantive competency claim, a petitioner must
demonstrate by a preponderance of the evidence that he was in fact
incompetent at the relevant time. Medina v. Singletary, 59 F.3d
1095, 1106 (11th Cir. 1995); see also Johnston v. Singletary, 162
F.3d 630, 637 n.7 (11th Cir. 1998).
The relevant standard for assessing a criminal defendant’s
mental competency is set forth in Dusky v. United States, 362 U.S.
402, 402 (1960). The Dusky standard requires a court to determine
whether a defendant “has sufficient present ability to consult
with his lawyer with a reasonable degree of rational understanding—
and whether he has a rational as well as factual understanding of
the proceedings against him.” Id. See also Godinez v. Moran, 509
U.S. 389, 401-02 (1993) (holding the Dusky standard similarly
applies in the context of guilty pleas). To demonstrate actual
incompetence, a petitioner’s burden is exceedingly high. Sheley v.
Singletary, 955 F.2d 1434, 1438 (11th Cir. 1992). “Courts in habeas
corpus

proceedings

should

not
20
A-25

consider

claims

of

mental

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 21 of 42 PageID 429

incompetence [to enter a plea] where the facts are not sufficient
to

positively,

unequivocally,

and

clearly

generate

a

real,

substantial, and legitimate doubt as to the mental capacity of the
petitioner.” Id. (quoting Reese v. Wainwright, 600 F.2d 1085, 1091
(5th Cir. 1979)). When a petitioner contends he was substantively
incompetent to enter a plea, he is entitled to an evidentiary
hearing only “upon a presentation of ‘clear and convincing evidence
[raising] a substantial doubt’ as to his or her competency.” James,
957 F.2d at 1572 (quoting Fallada v. Dugger, 819 F.2d 1564, 1568
(11th Cir. 1987)).
Whether a petitioner has the present ability to consult with
his lawyer and understand the proceedings may be gleaned from
hearing

and

trial

transcripts:

“The

best

evidence

of

[a

petitioner’s] mental state . . . is the evidence of his behavior”
at the relevant time, such as during trial or during a plea
hearing. See Wright v. Sec’y for Dep’t of Corr., 278 F.3d 1245,
1259 (11th Cir. 2002). A petitioner must do more than simply assert
he has low intelligence or was suffering from a mental deficiency
at the time:
“[N]ot every manifestation of mental illness
demonstrates incompetence to stand trial;
rather, the evidence must indicate a present
inability to assist counsel or understand the
charges.”
Similarly,
neither
low
intelligence, mental deficiency, nor bizarre,
volatile, and irrational behavior can be
equated with mental incompetence to stand
trial.
21
A-26

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 22 of 42 PageID 430

Medina, 59 F.3d at 1107 (internal citations omitted). In Wright,
the court held the petitioner failed to carry his heavy burden
even though he had been declared incompetent to stand trial
seventeen years previously, he pled not guilty by reason of
insanity in the underlying criminal case, and expert witnesses
testified (in support of his insanity plea) that he was “actively
psychotic” at the time he committed the crime. Id.
The court reasoned the petitioner, at the relevant times,
acted “perfectly normal,” communicated with others, including his
attorney, and understood the charges. Id. As such, the court found
immaterial that, months after his trial in the underlying case,
the defendant was declared incompetent to stand trial on subsequent
charges. Id. n.4. See also Medina, 59 F.3d at 111 (finding relevant
that petitioner coherently testified at trial and at sentencing,
spoke “rationally and with understanding,” and when he acted out
during trial, responded appropriately to the judge’s reprimands);
Sheley, 955 F.2d at 1438 (holding the petitioner failed to carry
his heavy burden where the trial judge’s questioning of him showed
“verbal coherence” even though the petitioner claimed he had taken
psychotropic medication on the day of the plea and he had a history
of mental illness).
Here, Petitioner has not met his high burden to demonstrate
by a preponderance of the evidence he was incompetent when he
entered his guilty plea. See Medina, 59 F.3d at 1106. The record
22
A-27

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 23 of 42 PageID 431

demonstrates Petitioner was able to communicate with his attorney
and the judge; understood the judge’s questions, the charges
against him, and the waiver of rights associated with his plea;
exhibited no confusion; and responded appropriately when the judge
asked him questions. Ex. A at 10-11. Petitioner chose, through
“the decision-making process,” to plead guilty and understood his
plea resulted in the waiver of certain rights and could result in
his deportation. Id. at 6, 7. Petitioner’s rational and appropriate
responses, and his full and lucid participation in the plea
proceeding, demonstrate Petitioner’s reasonable degree of rational
understanding of the proceedings.
Petitioner’s reliance on Storey v. State, 32 So. 3d 105 (Fla.
2d DCA 2009), is misplaced. See Petition at 12. In Storey, the
state appellate court remanded the case to the trial court to
conduct an evidentiary hearing, finding the plea colloquy did not
clearly refute the petitioner’s claim of incompetency. Storey, 32
So. 3d at 107. Petitioner here argues the plea colloquy similarly
did not refute his claim of incompetency and he, therefore, should
have been afforded an evidentiary hearing. Petition at 12.
Importantly, it is not the province of this Court to review
whether the trial court should have held an evidentiary hearing on
Petitioner’s 3.850 motion. This Court’s review is limited to
whether the trial court’s findings were contrary to or involved an
unreasonable application of federal law. § 2254(d). Here, as
23
A-28

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 24 of 42 PageID 432

discussed, the state court’s conclusion that counsel satisfied the
Strickland standard is supported by the record. And the plea
colloquy demonstrates Petitioner was competent to enter a guilty
plea. Based on the record, Petitioner decidedly had the ability to
consult with his lawyer and understand the plea proceedings.
Petitioner’s

only

proffered

evidence

of

his

alleged

incompetence is the opinion of neuropsychologist Dr. Ginart. Dr.
Ginart’s opinion does not “positively, unequivocally, and clearly
generate a real, substantial, and legitimate doubt as to the mental
capacity” of Petitioner at the time he entered his guilty plea.
Sheley, 955 F.2d at 1438. First, Dr. Ginart concludes Petitioner,
“at the time of the evaluation,” functioned at the “[e]xtremely
[l]ow range of functioning,” and prior to Petitioner’s legal
problems, he “was not considered to be much higher than just above
the upper level of the [m]ild [m]ental [r]etardation range (i.e.,
in the lower end of the [b]orderline range of functioning.”
Petition at 26. Mild mental retardation, however, does not equate
to incompetency under the Dusky standard. See Medina, 59 F.3d at
1107 (“[N]ot every manifestation of mental illness demonstrates
incompetence to stand trial; rather, the evidence must indicate a
present inability to assist counsel or understand the charges.”).
Second,

Dr.

Ginart

explains

Petitioner

“suffered

a

mild

traumatic head injury during his childhood.” Petition at 26. But
Dr. Ginart does not explain the nature of the injury or its effects
24
A-29

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 25 of 42 PageID 433

on Petitioner at the time of the plea hearing. In fact, Dr. Ginart
offers no explanation as to how Petitioner’s head injury impacted
Petitioner at all. Instead, Dr. Ginart explains in general terms
how

“[v]ictims

of

mild

head

injuries”

are

impacted

by

such

conditions and react to stressors. Id.
Finally,

and

most

importantly,

Dr.

Ginart

concludes

Petitioner “was cognitively, intellectually, and psychiatrically
incompetent to enter a plea (on his own), under stress/duress
without adequate legal representation.” Id. (emphasis added).
Petitioner was represented by counsel who explained the nature of
the charges, the rights Petitioner waived by entering a plea, and
potential

consequences

of

his

plea,

including

possible

deportation. Ex. A at 9-11. Aside from Petitioner’s assertion that
his counsel failed to request a competency hearing, there is no
suggestion Petitioner was denied adequate legal representation. In
fact,

the

trial

judge

stated

Petitioner’s

counsel

provided

“excellent representation[].” Ex. A at 17, 25. Considering the
circumstances under which Petitioner entered his guilty plea (with
counsel),

Dr.

Ginart’s

opinion

can

be

interpreted

to

imply

Petitioner was competent at the time.
In short, Dr. Ginart does not conclude that on the day
Petitioner entered his plea, he exhibited neurological problems
such that he was unable to understand the proceedings or aid in
his defense. Nor could Dr. Ginart have reached such a conclusion
25
A-30

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 26 of 42 PageID 434

because his opinion was based on an evaluation of Petitioner after
the fact,11 and there is no indication Dr. Ginart reviewed the plea
transcript or mental health/medical records generated close in
time to the plea hearing. Indeed, Dr. Ginart states his opinion is
based solely on the results of a neuropsychological evaluation he
administered. See Petition at 26.
To the extent Petitioner may have demonstrated cognitive
impairments or limitations at the time Dr. Ginart examined him,
there is nothing in the record to demonstrate Petitioner was
incompetent under the Dusky standard at or near the time he entered
his plea. See Wright, 278 F.3d at 1259 (holding the defendant’s
declared incompetence seven months after trial was “not enough to
counter the best evidence of what his mental condition was at the
only time that counts,” which was the time of the proceedings
against him). Upon review of the plea transcript, Petitioner
demonstrated a “sufficient present ability to consult with his
lawyer

.

.

.

[and]

he

had

a

rational

as

well

as

factual

understanding of the proceedings against him.” Id. at 1257 (quoting
Dusky, 362 U.S. at 402).

11

The date of the neurological examination and the date on
which Dr. Ginart rendered his opinion are unknown because Dr.
Ginart’s letter is undated. However, it is undisputed Dr. Ginart’s
examination was conducted after the plea hearing and in aid of
Petitioner’s postconviction proceedings. See Petition at 10; Ex.
D-5.
26
A-31

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 27 of 42 PageID 435

A claim of ineffective assistance for counsel’s failure to
request a competency hearing requires a petitioner to demonstrate
both deficient performance and prejudice under the Strickland
standard. As with other Strickland claims, a counsel’s performance
is

presumed

reasonable;

representation

fell

a

petitioner

below

an

must

show

objective

“counsel’s

standard

or

reasonableness.” Lawrence v. Sec’y, Fla. Dep’t of Corr., 700 F.3d
464, 477 (11th Cir. 2012) (quoting Strickland, 466 U.S. at 688).
Under the prejudice prong, however, a petitioner must show “there
was

a

reasonable

competency

hearing

probability
and

been

that
found

he

would

have

incompetent

received
had

a

counsel

requested the hearing.” Id. at 479 (emphasis in original). Under
this standard, the prejudice prong of the ineffective assistance
claim

demands

the

same

showing

as

that

under

a

substantive

competency claim. Under both claims, a petitioner must demonstrate
he was actually incompetent at the time of the plea. Id. As such,
the

evidence

supporting

a

substantive

competency

analysis

is

“largely the same” as the evidence supporting an ineffectiveassistance-of-counsel analysis. Id. at 481-82.
Even when a defendant exhibits some questionable behavior
during the proceedings and has a history of mental issues, a trial
counsel’s “decision not to request a competency hearing [is] within
[counsel’s] reasoned professional judgment.” Id. at 477-78. For
instance, in Lawrence, the defendant, who had “some limitations in
27
A-32

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 28 of 42 PageID 436

his functioning,” pleaded guilty. The court accepted his guilty
plea

after

counsel

represented

the

defendant

understood

the

proceedings. Id. at 467. During the penalty phase, the defendant
reported having flashbacks and asked to be excused from the
courtroom during certain testimony. Id. at 469.
The court held trial counsel’s decision not to request a
competency
admitted

hearing

at

the

was

reasonable

postconviction

even

though

evidentiary

trial

hearing

counsel
that,

in

hindsight, she erred by not requesting a competency evaluation of
her client. Id. at 478. The court noted trial counsel’s performance
is to be viewed objectively, and counsel’s after-the-fact selfcritique carried little weight. Id. The court found significant
that trial counsel did not state the defendant “was ever unable to
communicate with [her] or assist . . . in his defense.” Id.
Additionally, after the defendant reported hallucinating,

the

trial court engaged the defendant in a lengthy discussion, after
which trial counsel concluded the defendant was simply having a
“bout with his conscience.” Id. Accordingly, the court held trial
counsel’s decision not to request a competency hearing “did not
fall below an objectively reasonable standard of performance.” Id.
at 478-79.
With respect to the prejudice (actual incompetency) prong,
the

court

held

the

state

court’s

determination

was

not

an

unreasonable application of Strickland, even though two mental
28
A-33

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 29 of 42 PageID 437

health experts testified at the postconviction evidentiary hearing
(five years after the plea) that the defendant was incompetent at
the time of his plea and during the penalty phase. Id. at 472,
479, 480. The court reasoned, in part, that the plea colloquy with
the

defendant

and

trial

counsel

demonstrated

the

defendant

understood the proceedings and entered his plea willingly. Id. at
479. The court held as follows:
While the state trial court did not make a
specific competency finding, the trial court’s
detailed
colloquy,
[the
petitioner’s]
rational and consistent responses to the trial
court’s questions, and the state trial court’s
findings that [the petitioner’s] guilty plea
was knowing and voluntary nonetheless support
the reasonableness of the Florida Supreme
Court’s conclusion on Strickland prejudice.
Id.
Here, Petitioner fails to demonstrate his counsel performed
deficiently. Petitioner offers no evidence to show a reasonably
competent attorney would have questioned his competence to enter
a plea. Indeed, nothing in the record even hints at a possible
competency issue before or at the time Petitioner entered his plea.
The first time a competency issue arose was during Petitioner’s
postconviction proceedings when Dr. Ginart evaluated him. There is
no indication defense counsel knew Petitioner sustained a head
injury when he was a child or functioned at a low level of
intellectual ability. Even if counsel had known as much, these
conditions do not speak to incompetency at the relevant time, which
29
A-34

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 30 of 42 PageID 438

was when Petitioner entered his plea. See, e.g., Lawrence, 700
F.3d at 478-79.
Regardless of Petitioner’s level of functioning at the postplea neuropsychological examination conducted by Dr. Ginart, the
plea colloquy demonstrates a reasonably competent attorney would
have had no reason to question whether Petitioner had a rational,
as well as factual understanding of his criminal proceedings.
During the plea colloquy, Petitioner’s counsel told the judge he
spent time speaking with Petitioner, who counsel described as a
good person, articulate, and educated, and the trial judge noted
on the record that Petitioner’s attorney “indicated [Petitioner
was] competent.” Ex. A at 15, 24, 34. There is nothing to indicate
Petitioner

struggled

to

comprehend

the

proceedings

or

had

difficulty communicating or understanding, which would have put
his attorney on notice of a competency concern. Defense counsel
stated he explained the strength of the state’s case to Petitioner,
and Petitioner chose, through “the decision-making process,” to
plead guilty rather than have his attorney take depositions. Id.
at 24, 25.12

12

It is worth highlighting Petitioner received an extremely
lenient sentence as a result of his guilty plea. The judge
sentenced him to six months in jail followed by three years of
probation. Ex. A at 78. At the plea proceedings, Petitioner’s
counsel expressed the strength of the state’s case against
Petitioner. Id. at 6. If convicted, Petitioner faced a minimum of
84 months in prison. Id. at 78. Not only did Petitioner receive a
much lighter sentence than the minimum under the sentencing
30
A-35

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 31 of 42 PageID 439

Even assuming counsel acted deficiently, Petitioner cannot
meet

the

high

threshold

of

prejudice

because

he

fails

to

demonstrate he was incompetent when he entered his plea, as
analyzed in detail above. Petitioner does not allege he suffered
from mental conditions or illnesses that are associated with
“incompetency” under Dusky; he offers no evidence of a history of
mental illness or documentation of such; and there is no evidence
Petitioner was receiving or had received treatment for a mental
illness. Indeed, at the plea hearing, Petitioner denied ever having
been “found to be insane, incompetent, or mentally challenged.”
Ex. A at 10.
In

sum,

considering

the

totality

of

the

circumstances

surrounding Petitioner’s plea, Petitioner fails to carry his heavy
burden to demonstrate he was actually incompetent at the time he
entered his guilty plea. As such, he concomitantly fails to
demonstrate counsel’s alleged deficient performance prejudiced his
defense.
B. Ground Two
In ground two, Petitioner claims his counsel was ineffective
for his failure to move to dismiss the attempted lewd or lascivious
battery charge (count four). Petition at 17. Petitioner contends
an element of that offense requires the victim be of a certain

scoresheet, but the sentence was even lower than what the state
had offered Petitioner, which was a prison sentence. Id. at 17.
31
A-36

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 32 of 42 PageID 440

age, and the victim was undisputedly outside the statutory agerange.

Id.

Respondents

argue

Petitioner

cannot

demonstrate

deficient performance because Petitioner was charged with attempt,
not

a

completed

Respondents

offense.

maintain,

Response

Petitioner

at

cannot

22-23.

Additionally,

demonstrate

prejudice

because the state’s case against him was strong, and Petitioner
received an “extremely lenient downward departure sentence” under
his plea agreement. Id. at 23-24.
Petitioner

exhausted

this

claim

in

ground

two

of

his

postconviction motion, Ex. D-5 at 8, and by appealing the trial
court’s order to the Fifth DCA, Ex. H at 1; Ex. I at 12. The Fifth
DCA affirmed the trial court’s decision without opinion. Ex. M.
Under Wilson, this Court

presumes the Fifth DCA adopted the

reasoning of the trial court, and the state has not attempted to
rebut this presumption. See 138 S. Ct. at 1192. As such, the Court
will “look through” the unexplained opinion to the trial court’s
order on Petitioner’s 3.850 motion. Id.
In its order denying Petitioner’s motion for postconviction
relief,

the

trial

court

set

forth

the

applicable

two-prong

Strickland test. Ex. D-3 at 3, 5-6. In denying ground two of
Petitioner’s postconviction motion, the trial court found the
primary authority upon which Petitioner relied was inapposite. Id.
at 5 (citing Pamblanco v. State, 111 So. 3d 249, 252 (Fla. 5th DCA
2013)).

The

trial

court

recognized
32
A-37

Pamblanco

stands

for

the

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 33 of 42 PageID 441

proposition that “for the completed offense of solicitation of a
child under the age of sixteen to commit lewd or lascivious
conduct, the request must be made to someone under sixteen.” Ex.
D-3 at 5. The trial court also acknowledged the “victim” in
Petitioner’s case was actually an undercover officer and therefore
over

the

age

of

sixteen.

Id.

However,

the

court

continued,

Petitioner was charged with “attempted” lewd/lascivious conduct,
and “Pamblanco makes clear that the holding does not apply to
‘attempted’ lewd/lascivious charges.” Id. The trial court further
stated, “[e]ven if the sentence . . . is eventually vacated as
illegal, there is no showing that confidence in the outcome, based
on the remaining charges, is undermined.” Id. at 5-6.
Upon review, the record demonstrates the trial court properly
applied the Strickland standard and found no deficient performance
on the part of counsel and no prejudice to Petitioner’s defense.
As such, Petitioner is unable to establish the state court’s
decision is inconsistent with Supreme Court precedent, including
Strickland, or is based on an unreasonable determination of the
facts.

Under

AEDPA’s

deferential

standard,

Petitioner

is

not

entitled to habeas relief on ground two.
C. Ground Three
In ground three, Petitioner asserts his convictions on an
Information charging both “solicitation” and “traveling” under two
subsections of Florida Statutes section 847.0135 (subsections
33
A-38

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 34 of 42 PageID 442

(3)(a) and (4)(a)) violate double jeopardy because those charges
were based on the same conduct. Petition at 18-19. Petitioner
states

the

postconviction

court’s

reasoning,

in

denying

this

ground, has since been rejected by the Second DCA in Shelley v.
State, 134 So. 3d 1138, 1141-42 (Fla. 2d DCA 2014).13 Respondents
contend Petitioner’s “negotiated guilty plea waived any double
jeopardy claims regarding his convictions.” Response at 25.
Petitioner

exhausted

this

claim

in

ground

three

of

his

postconviction motion, Ex. D-5 at 10, and by appealing the trial
court’s order to the Fifth DCA, Ex. H at 1; Ex. I at 12. The Fifth
DCA affirmed the trial court’s decision without opinion. Ex. M. In
its order denying Petitioner’s motion for postconviction relief,14
the

trial

court

found

Petitioner’s

“convictions

under

subsection[s] (3)(a) and (3)(b) were for separate offenses; thus,
no double jeopardy violations occurred.” Ex. G at 3-4. The record
shows the Fifth DCA affirmed the decision of the trial court in
denying this ground. Ex. M. Under Wilson, this Court presumes the

13

Significantly, the Shelley opinion was decided in 2014,
after Petitioner was charged (July 16, 2012) and after he entered
his plea (August 19, 2013).
14

The trial court addressed the double jeopardy claim in its
final order on Petitioner’s 3.850 motion after directing the state
to respond to the issue. Ex. D-2. The trial court’s initial order
on Petitioner’s postconviction motion addressed his alternative
ground for relief, ineffective assistance of counsel for failure
to move to dismiss the duplicative count in the Information. Ex.
D-5 at 10. Petitioner has not asserted ineffective assistance of
counsel in ground three in his Petition before this Court.
34
A-39

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 35 of 42 PageID 443

Fifth DCA adopted the reasoning of the trial court, and the state
has not attempted to rebut this presumption. See 138 S. Ct. at
1192. As such, the Court will “look through” the unexplained
opinion to the trial court’s order on Petitioner’s 3.850 motion.
Id.
After a review of the record and the applicable law, the Court
concludes the state court’s adjudication of the claim was not
contrary to clearly established federal law, did not involve an
unreasonable application of clearly established federal law, and
was not based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceedings.
Thus, Petitioner is not entitled to relief on this claim.
Even if the state court finding is not entitled to deference,
Petitioner’s claim fails. The Supreme Court makes clear that a
defendant who voluntarily and with counsel’s advice pleads guilty
to criminal charges waives his right to contest the conviction on
double jeopardy grounds. United States v. Broce, 488 U.S. 563, 569
(1989).
A plea of guilty and the ensuing conviction
comprehend all of the factual and legal
elements necessary to sustain a binding, final
judgment of guilt and a lawful sentence.
Accordingly, when the judgment of conviction
upon a guilty plea has become final and the
offender seeks to reopen the proceeding, the
inquiry is ordinarily whether the underlying
plea was both counseled and voluntary.

35
A-40

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 36 of 42 PageID 444

Id. A guilty plea is not only a confession but a recognition that
the defendant committed the substantive crimes in the charging
document. Id. at 570. In Broce, the defendants argued their
convictions violated double jeopardy because they engaged in only
one conspiracy but entered guilty pleas to two separate charges of
conspiracy, as alleged in the indictment. Id. at 565, 570. The
Court held their pleas resulted in a waiver of such a collateral
attack even though their attorney did not discuss double jeopardy
issues with them beforehand. Id. at 572, 573. While the defendants
may have “made a strategic miscalculation,” their pleas were
entered voluntarily and freely and with the advice of counsel. Id.
at 574. The Court held, “[r]elinquishment [of the right to object
on double jeopardy grounds] derives not from any inquiry into a
defendant’s subjective understanding of the range of potential
defenses, but from the admissions necessarily made upon entry of
a voluntary plea of guilty.” Id. at 573-74.
Upon review of the applicable law and the record, the Court
finds Plaintiff freely and voluntarily entered his plea with the
assistance

of

competent

counsel,

thus

waiving

his

right

to

collaterally attack his conviction on double jeopardy grounds. See
id. at 565, 570. Importantly, Petitioner does not contest the
voluntariness of his plea, and the plea colloquy demonstrates his
plea was in fact voluntarily entered. Petitioner specifically
acknowledged he was waiving certain rights, which were explained
36
A-41

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 37 of 42 PageID 445

by his attorney and the judge; he confirmed he wished to proceed
with the plea under the factual predicate provided by the judge
and on his attorney’s representations that Petitioner understood
the consequences of his plea; he acknowledged his plea would result
in his being labeled a sexual offender and could subject him to
deportation; he agreed his attorney answered all his questions;
and he affirmed he was not under the influence of any intoxicants
at

the

time.

declarations

Ex.

in

A

court

at

9-10,

carry

a

14,

15.

strong

Petitioner’s

presumption

solemn

of

truth.

Blackledge v. Allison, 431 U.S. 63, 74 (1977); see also WinthropRedin v. United States, 767 F.3d 1210, 1217 (11th Cir. 2014)
(recognizing statements made under oath at a plea colloquy are
presumed

true).

Thus,

Petitioner’s

representations

that

he

understood the plea agreement and the rights he was giving up
“constitute a formidable barrier in any subsequent collateral
proceedings.” Blackledge, 431 U.S. at 73-74.
The Broce Court acknowledged an exception to the general rule
“barring collateral attack on a guilty plea,” which narrowly
applies when a presiding trial judge should have determined the
charge, on the face of the charging document, was not one the state
could constitutionally prosecute. 488 U.S. at 574, 575. In Broce,
the exception did not apply because the defendants pleaded guilty
to

“indictments

that

on

their

face

described

separate

conspiracies.” Id. at 576. See also Dermota v. United States, 895
37
A-42

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 38 of 42 PageID 446

F.2d 1324, 1325, 1326 (11th Cir. 1990) (holding the defendant’s
voluntary and counseled guilty plea waived a double jeopardy
challenge because the indictment described separate offenses and
the

prosecutor

“unquestionably

[was]

entitled

to

prosecute

simultaneously” for both charges even though a conviction under
both charges may have violated double jeopardy).
The exception to the general rule of waiver recognized by the
Broce Court does not apply here. There is no indication on the
face of the Information the charges were not ones the state could
constitutionally

prosecute.

488

U.S.

at

575.

The

Information

charged separate offenses against Petitioner. Ex. A at 38. Count
one charged Petitioner with “use of internet or device to lure a
child”

under

Petitioner
conduct”

section

with

under

847.0135(3)

“traveling
section

to

and

meet

count

minor

847.0135(4)(a).

for

Each

three

charged

illegal
charge

sexual

named

a

seemingly different victim: count one referenced a victim named
“Tiffany

Wright,”

and

count

three

referenced

a

victim

named

“Jenny.” Id.
Even though Tiffany Wright and Jenny were in fact references
to

the

same

fictitious

child,15

the

Information,

to

which

Petitioner pleaded guilty, identified two separate charges against
different victims. Id. The victims were not described as the same

15

The record is clear Petitioner believed he was traveling
to meet one child, not two. Ex. A at 28-29.
38
A-43

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 39 of 42 PageID 447

person in the Information. That the trial judge, during the plea
colloquy, referenced the victim(s) as “Jenny or Tiffany or somebody
else”

suggests

it

was

not

readily

apparent

the

two

charges

referenced the same victim. Ex. A at 12-13. There is also no
indication

the

Information

on

its

face

was

constitutionally

infirm.16
The state court opinion upon which Petitioner heavily relies
does not entitle Petitioner to federal habeas relief. See Shelley
v. State, 134 So. 3d 1138, 1141-42 (Fla. 2d DCA 2014). The Shelley
court held a conviction under both subsections (3)(a) and (4)(a),
when based upon the same transaction, violates double jeopardy:
“[D]ual convictions for soliciting and traveling in the course of
one

criminal

transaction

or

episode

violate

the

prohibition

against double jeopardy.” Id. The defendant in Shelley entered a
guilty plea, but explicitly reserved his right to, and did, appeal
the trial court’s denial of his motion to dismiss the duplicative
charges as violating double jeopardy. Id. at 1139. Petitioner here

16

Petitioner seemingly invokes the limited exception
recognized by Broce, though he relies upon a Florida Supreme Court
decision instead. See Petition at 18 n.12; Reply at 7 (citing
Novaton v. State, 634 So. 2d 607 (Fla. 1994)). Petitioner argues
that because his plea was an “open” plea, not a “negotiated” plea,
he did not waive his right to later object on double jeopardy
grounds. The binding precedent does not distinguish between an
open or a negotiated plea, however. Broce, 488 U.S. at 574;
Dermota, 895 F.2d at 1325. Rather, as the Supreme Court held, the
“inquiry is . . . confined to whether the underlying plea was both
counseled and voluntary.” Broce, 488 U.S. at 569. As discussed,
Petitioner’s plea was both counseled and voluntary.
39
A-44

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 40 of 42 PageID 448

did no such thing; on the contrary, he explicitly waived his rights
when he entered his plea. Ex. A at 9-11, 14-15.
Additionally, the Shelley court acknowledged, “convictions
for both soliciting and traveling may be legally imposed in cases
in which the State has charged and proven separate uses of computer
devices to solicit.” Shelley, 134 So. 3d at 1142. The record here
suggests the prosecutor may have been able to prove “separate uses
of computer devices to solicit,” which would have resulted in
“legally imposed” convictions under both subsections. Id. For
instance, the search warrant authorized the search of two mobile
phones and a digital storage device, all of which were seized from
Petitioner’s possession upon his arrest. Ex. A at 65. The trial
court, in its final order on Petitioner’s 3.850 motion, noted
Petitioner used the devices to exchange 117 text messages, 16 phone
calls, and numerous emails with the supposed parent of a 13-yearold girl. Ex. G at 3.
Moreover,

at

the

early

stage

of

the

proceedings

when

Petitioner pleaded guilty, the prosecutor’s theory was premised,
in part, on the solicitation and the traveling offenses occurring
on different days, see Ex. K at 15, which could have supported
convictions under both subsections of the statute. See Shelley,
134

So.

3d

at

1142

(citing

with

approval

cases

that

held

convictions for both soliciting and traveling are lawful if based
on conduct that occurred on different dates).
40
A-45

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 41 of 42 PageID 449

Whether the prosecutor would have been able to prove the
separate violations against Petitioner is a different inquiry than
whether Petitioner freely and voluntarily entered a plea to the
Information, which charged him under both subsections (3)(a) and
(4)(a). See Dermota, 895 F.2d at 1325 (distinguishing the case on
the facts because in the precedent upon which the defendant relied,
the defendant was convicted of the two offenses, which the court
held violated double jeopardy, while the defendant in Dermota
pleaded guilty).
To

the

extent

the

facts

were

not

fully

developed

when

Petitioner entered his plea, he expressly waived his right to
object based on double jeopardy principles. Broce, 488 U.S. at
572. Petitioner may not now “withdraw his plea merely because he
[has] discover[ed] . . . that his calculus misapprehended the
quality of the State’s case. . . . [A] voluntary plea of guilty
intelligently made in the light of the then applicable law does
not become vulnerable because later judicial decisions indicate
that the plea rested on a faulty premise.” Id. at 572. For these
reasons, Petitioner is not entitled to relief on ground three.
Accordingly, it is now
ORDERED AND ADJUDGED:
1.

The Petition (Doc. 1) is DENIED.

2.

This action is DISMISSED WITH PREJUDICE.

41
A-46

Case 5:16-cv-00531-BJD-PRL Document 25 Filed 09/23/19 Page 42 of 42 PageID 450

3.

The Clerk shall enter judgment accordingly and close

this case.
4.

If Petitioner appeals the denial of his Petition, the

Court denies a certificate of appealability.17 The Clerk shall
terminate from the pending motions report any motion to proceed on
appeal as a pauper that may be filed in this case. Such termination
shall serve as a denial of the motion.
DONE AND ORDERED at Jacksonville, Florida, this 23rd day of
September, 2019.

Jax-6
c:
Counsel of Record

17

This Court should issue a certificate of appealability only
if a petitioner makes “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To make this
substantial showing, Petitioner “must demonstrate that reasonable
jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” Tennard v. Dretke, 542
U.S. 274, 282 (2004) (quoting Slack v. McDaniel, 529 U.S. 473, 484
(2000)), or that “the issues presented were ‘adequate to deserve
encouragement to proceed further,’” Miller-El v. Cockrell, 537
U.S. 322, 335-36 (2003) (quoting Barefoot v. Estelle, 463 U.S.
880, 893 n.4 (1983)). Upon due consideration, this Court will deny
a certificate of appealability.
42
A-47

A-48

A-49

A-50

A-51

A-52

A-53

A-54

A-55

A-56

A-57

A-58

A-59

A-60

A-61

A-62

A-63

A-64

A-65

A-66

A-67

A-68

A-69

A-70

A-71

A-72

A-73

A-74

A-75

A-76

A-77

A-78

A-79

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 250 of 301 PageID 324

A-80

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 251 of 301 PageID 325

A-81

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 252 of 301 PageID 326

A-82

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 253 of 301 PageID 327

A-83

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 254 of 301 PageID 328

A-84

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 255 of 301 PageID 329

A-85

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 256 of 301 PageID 330

A-86

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 257 of 301 PageID 331

A-87

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 258 of 301 PageID 332

A-88

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 259 of 301 PageID 333

A-89

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 260 of 301 PageID 334

A-90

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 261 of 301 PageID 335

A-91

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 262 of 301 PageID 336

A-92

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 263 of 301 PageID 337

A-93

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 264 of 301 PageID 338

A-94

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 265 of 301 PageID 339

A-95

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 266 of 301 PageID 340

A-96

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 267 of 301 PageID 341

A-97

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 268 of 301 PageID 342

A-98

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 269 of 301 PageID 343

A-99

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 270 of 301 PageID 344

A-100

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 271 of 301 PageID 345

A-101

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 272 of 301 PageID 346

A-102

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 216 of 301 PageID 290

A-103

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 217 of 301 PageID 291

A-104

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 218 of 301 PageID 292

A-105

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 219 of 301 PageID 293

A-106

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 140 of 301 PageID 214

A-107

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 141 of 301 PageID 215

A-108

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 142 of 301 PageID 216

A-109

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 143 of 301 PageID 217

A-110

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 144 of 301 PageID 218

A-111

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 145 of 301 PageID 219

A-112

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 57 of 301 PageID 131

A-113

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 58 of 301 PageID 132

A-114

Case 5:16-cv-00531-BJD-PRL Document 22-1 Filed 09/18/17 Page 2 of 3 PageID 407

A-115

Case 5:16-cv-00531-BJD-PRL Document 22-1 Filed 09/18/17 Page 3 of 3 PageID 408

A-116

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 46 of 301 PageID 120

A-117

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 47 of 301 PageID 121

A-118

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 48 of 301 PageID 122

A-119

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 78 of 301 PageID 152

A-120

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 79 of 301 PageID 153

A-121

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 80 of 301 PageID 154

A-122

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 81 of 301 PageID 155

A-123

Case 5:16-cv-00531-BJD-PRL Document 13 Filed 04/14/17 Page 82 of 301 PageID 156

A-124

